#19-6616

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
VS.

Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.
JPMorgan Chase & Co., & John Does 1 to 10,

5

V.

Respondents,
i

Attachment to [Emergency] Petition for Extraordinary Writ(s)
Over The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921

;

APPENDIX A

Cover Sheet & Copy of Original 1 Page Justice Obstructing Order/Opinion of 9th Circuit
;

;•

ROPE 4/10/2020
/s/RUi
/
Petitioner & Plaintiff In Pro Per
!

_ Case 2:17-cv-04921-MWF

\ Document 267 Filed 12/18/18

e 1 of 1 Page ID #:2024

UNITED STATES COURT OF APPEALS

FILED
DEC 18 2018

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RUSSELL ROPE,
Plaintiff-Appellant,
v.

No.

18-55782

D.C. No.
2:17-cv-04921 -MWF-PLA
Central District of California,
Los Angeles

FACEBOOK, INC.; et al.,
ORDER
Defendants-Appellees.
Before: LEAVY, BYBEE, and HURWITZ, Circuit Judges.
Upon a review of the record and the responses to the court’s July 31, 2018
order, we conclude this appeal is frivolous. We therefore deny appellant’s motion
to proceed in forma pauperis (Docket Entry No. 2), see 28 U.S.C. § 1915(a), and
dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall
dismiss case at anytime, if court determines it is frivolous or malicious).
All other pending motions are denied as moot.
DISMISSED.

sz/MOATT

Case: 18-55"

05/08/2019, ID: 11290345, DktEnt

'4, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAY 8 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RUSSELL ROPE,
Plaintiff-Appellant,
v.

No.

18-55782

D.C. No.
2:17-cv-04921 -MWF-PLA
Central District of California,
Los Angeles

FACEBOOK, INC.; et al.,
ORDER
Defendants-Appellees.
Before: LEAVY, BYBEE, and HURWITZ, Circuit Judges.
The filings at Docket Entry Nos. 28, 29, and 31 are construed as motions for
reconsideration of this court’s December 18, 2018 order.
Appellant’s motions for reconsideration (Docket Entry No. 26, 27, 28, 29,
and 31) of this court’s December 18, 2018 order are denied. See 9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

sz/MOATT

#19-5616

IN THE SUPREME COURT OF THE UNITED STATES
Russell Rope,
Petitioner;
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
Attachment to [Emergency] Petition for Extraordinary Writ(s)
Over The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921

APPENDIX B

Cover Sheet & Copy of Justice Obstructing Order/Opinion(s) of Central District Post
FAC

4/10/2020
Petitioner & Plaintiff In Pro Per

^Case 2:17-cv-04921-MWi

A Document 247 Filed 05/14/18

gel of 5 PagelD#:1813

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: May 14, 2018

Present: The Honorable MICHAEL W. FITZGERALD. U.S. District Judge
Deputy Clerk:
Rita Sanchez

Court Reporter:
Not Reported

Attorneys Present for Plaintiff:
None Present

Attorneys Present for Defendant:
None Present

Proceedings (In Chambers): ORDER GRANTING MOTIONS TO DISMISS
[222] [224]; PLAINTIFF’S VARIOUS REQUESTS
RE: MOTIONS [237] [242] [243] [244] [245]
Before the Court are two motions to dismiss Pro Se Plaintiff Russell Rope’s
First Amended Complaint (“FAC”), which was filed on February 19, 2018. (Docket
No. 136). Defendant JPMorgan Chase Bank, N.A. (“JPMorgan”), filed a Motion to
Dismiss (the “JPMorgan Motion”) on March 16, 2018. (Docket No. 222). Plaintiff
filed an Opposition on April 23,2018 (Docket No. 238), to which JPMorgan replied
on April 30, 2018. (Docket No. 240).
On March 19, 2018, Defendants Apple Inc., Facebook, Inc., Alphabet, Inc., and
Twitter, Inc. (together, “Tech Defendants”) also filed a Motion to Dismiss (the “Tech
Motion”). (Docket No. 224). Plaintiff filed an Opposition on April 23, 2018 (Docket
No. 239), and the Tech Defendants filed a Reply on April 30, 2018. (Docket No.
241).
Plaintiff also sought leave to file sur-replies to JPMorgan’s and the Tech
Defendants’Replies. (Docket Nos. 242, 243,244, 245). Those requests are
DENIED. Plaintiff already filed over-sized Oppositions of at least 50 pages each to
each Motion, and the proposed sur-replies are not necessary for the Court’s
determination of the Motions.
In connection with his Oppositions, Plaintiff also requested that the Court
consider all of the exhibits filed in connection with his initial Complaint as
CIVIL MINUTES—GENERAL

1

.v*

'Case 2:17-cv-04921-MW

.A Document 247 Filed 05/14/18

ge2of5 Page ID #:JL814

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: May 14,2018

incorporated into the FAC. (Docket No. 237). The Court considers the exhibits as
necessary to determine the Motions; the request is GRANTED.
Pursuant to Rule 78 of the Federal Rules of Civil Procedure and Local Rule 715, the Court determined that the Motions were appropriate for submission on the
papers, and vacated the hearing set for May 14,2018. (Docket No. 246). The Court
has read and considered the papers filed on the Motions, and for the reasons set forth
below, the JPMorgan Motion and the Tech Motion are both GRANTED without
leave to amend. Plaintiff’s FAC suffers from the same defects as his initial
Complaint.
I.

DISCUSSION

First, like the initial Complaint, the FAC fails to meet the requirements of Rule
8 of the Federal Rules of Civil Procedure. The initial Complaint was 100 pages long
(without the 66 exhibits), and contained 310 paragraphs of “rambling, unrelated
allegations against the named Defendants as well as his doctors, strangers on the
street, law enforcement officers, doormen at night clubs, his brothers, his landlords,
and myriad other companies and individuals.” (Order re Motions to Dismiss at 7
(Docket No. 114)). In the Court’s prior Order granting Defendants’ Motions to
Dismiss the Complaint, the Court afforded Plaintiff one opportunity to “remove
excessive redundancy, allegations irrelevant to the claims for relief, and conclusory or
excessively argumentative allegations” such that the amended Complaint conformed
to the Rule 8. (Id.).
Plaintiff has failed to comply with the Court’s directives in this regard. The
FAC is now 126 pages (without exhibits) and contains 365 paragraphs in which
Plaintiff doubles down on the conclusory, unrelated allegations asserted in the initial
Complaint. The allegations in the FAC do no more to put Defendants on notice of the
nature of the claims against them than did the allegations in the initial Complaint.
Indeed, Plaintiffs failure to comply - or even attempt to comply - with the Court’s
order is itself reason to dismiss the FAC. See Ferdik v. Bonzelet, 963 F.2d 1258, 1260

CIVIL MINUTES—GENERAL

2

i' Cale 2:17-cv-04921-MW

A Document 247 Filed 05/14/18

ge3of5 PagelD#:1815

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: May 14,2018

(9th Cir. 1992) (stating that district court may dismiss action for failure to comply
with any order of the court).
Again, it is not the Court’s responsibility to “expend time and effort searching
through large masses of conclusory, argumentative, evidentiary and other extraneous
allegations in order to discover whether the essentials of claims asserted can be found
in such a melange.” Jacobson v. Schwartzenegger, 226 F.R.D. 395, 397 (C.D. Cal.
2005) (citation omitted) (dismissing 200-page complaint for failure to comply with
Rule 8); Hatch v. Reliance Ins. Co., 758 F.2d 409, 415 (9th Cir. 1985) (affirming
district court’s dismissal of complaints that “exceeded 70 pages in length, were
confusing and conclusory, and not in compliance with Rule 8”); McHenry v. Renne,
84 F.3d 1172, 1178 (9th Cir. 1996) (affirming dismissal of complaint that was
“argumentative, prolix, replete with redundancy, and largely irrelevant”).
Second, as with the initial Complaint, it appears that at least some, if not all, of
Plaintiff’s claims are barred by the doctrine of res judicata, although the confusing
nature of the FAC makes it impossible for the Court to determine conclusively that the
claims’ are barred. In the FAC, Plaintiff himself refers to and incorporates by
reference his multiple prior actions in federal and state court against Defendants.
{See, e.g., FAC 41, 85, 321). Regardless of how Plaintiff now styles his claims for
relief, even he acknowledges that they are based on the same facts and issues - for
example, JPMorgan’s allegedly wrongful closing of Plaintiff s bank account, theft of
his money, and attempts to thwart his job searches. The “true inquiry” for res judicata
purposes is whether the “claims arose from the same transactional nucleus of facts.”
United States v. Liquidators ofEuropean Fed. Credit Bank, 630 F.3d 1139, 1151 (9th
Cir. 2011); Turtle Island Restoration Network v. US. Dep’t ofState, 613 F.3d 914,
918 (9th Cir. 2012) (holding that where claims arise out of “same transactional
nucleus of facts” res judicata may apply even if actions present different legal claims).
In the Court’s prior Order dismissing the Complaint, the Court ordered Plaintiff
to amend his Complaint to ensure that it raised “only claims that have not already
been dismissed on the merits” in Plaintiffs prior actions against Defendants. (Order
re Motions to Dismiss at 10). Although the Court does not conclusively determine
CIVIL MINUTES—GENERAL

3

’Case 2:17-cv-04921-MW

A Document 247 Filed 05/14/18

ge4of5 Page ID #:,1816

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-G4921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: May 14,2018

which claims are barred by res judicata - nor does it need to do so, in light of its
determination that the FAC fails under Rule 8 - it is apparent that Plaintiff has not
complied with the Court’s instructions with respect to amending his Complaint.
Third, Defendants correctly argue that no one of Plaintiff s 22 claims is
properly pled. Although the Court need not reach this issue in light of its conclusion
under Rule 8, it is apparent that Plaintiffs claims fail under Rule 12(b)(6) as well. For
example, 11 of Plaintiff s claims are brought pursuant to the California Penal Code or
federal criminal statutes that do not create private rights of action. {See JPMorgan
Mot. at 12-15; Tech Mot. at 16-20). In his Opposition to the JPMorgan Motion,
Plaintiff admits he is not seeking liability pursuant to these claims, and instead pleads
them as “prerequisite[sj” for the alleged RICO conspiracy. (Opp. at 25).
In another example, Plaintiffs various fraud claims (fraud, computer fraud,
wire fraud, and mail fraud) all fail to meet the heightened pleading standards of Rule
9(b). “Rule 9(b) demands that, when averments of fraud are made, the circumstances
constituting the alleged fraud be specific enough to give defendants notice of the
particular misconduct so that they can defend against the charge[.]” Vess v. CibaGeigy Corp. USA, 317 F.3d 1097, 1106 (9th Cir. 2003) (internal citations omitted).
Under Rule 9(b), fraud allegations must include the “time, place, and specific content
of the false representations as well as the identities of the parties to the
misrepresentations.” Swartz v. KPMG LLP, 476 F.3d 756, 764 (9th Cir. 2007) (citing
Edwards v. Marin Park, Inc., 356 F.3d 1058, 1066 (9th Cir. 2004)). In his Opposition
to the Tech Motion, Plaintiff points to the timeline in Exhibit 39 and the “broad
factual allegations stated throughout the body of the complaint” as satisfying this
heightened standard. (Opp. at 27). But Exhibit 39 is a long list of vague, cryptic line
items such as “Loan Fraud” and “Continuous Housing Fraud++ @ Hollywood”.
Neither Exhibit 39 nor the allegations in the FAC state the necessary time, place,
specific content, or specific parties involved in any misrepresentations.
In response to the Court’s grant of leave to amend the initial Complaint,
Plaintiff ignored the Court’s directives regarding Rule 8 and res judicata. It is
apparent that permitting Plaintiff another opportunity to amend would be futile. See,
CIVIL MINUTES—GENERAL

4

SCase 2:17-cv-04921-MWF

A Document 247 Filed 05/14/18

je 5 of 5 Page ID #:1817

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—-GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: May 14, 2018

e.g., Plumeau v. School Dist. No. 40 County of Yamhill, 130 F.3d 432,439 (9th Cir.
1997) (affirming district court’s denial of leave to amend where “any such amendment
would have been futile”); Hawkins v. Thomas, No. EDCV 09-1862 JST (SS), 2012
WL 1944828, at *1-2 (C.D. Cal. May 29, 2012) (dismissing pro se plaintiffs
complaint with prejudice where “the dismissed claims could not be cured by any
amendment”). Plaintiff acknowledges as much in his Opposition to the Tech Motion,
stating, “Further amendment of the FAC at this point would mostly be a waste of
time.” (Opp. at 53).
II.

CONCLUSION
Accordingly, the Motions are GRANTED without leave to amend.

This Order shall constitute notice of entry of judgment pursuant to.Federal Rule
. of Civil Procedure 58. Pursuant to Local Rule 58-6, the Court ORDERS the Clerk to
treat this Order, and its entry on the docket, as an entry of judgment.
IT IS SO ORDERED.

‘

•

' s

r,

CIVIL MINUTES—GENERAL

5

jCase 2:17-cv-04921-MW,

A Document 114 Filed 12/20/17

gel of 11 Page ID #-666

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-0492l-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.
Present:

Date: December 20,2017

The Honorable MICHAEL W. FITZGERALD. U.S. District Judge
Deputy Clerk:
Rita Sanchez

Court Reporter:
Not Reported

Attorneys Present for Plaintiff:
None Present

Attorneys Present for Defendant:
None Present

Proceedings (In Chambers): ORDER RE MOTIONS TO DISMISS [67] [88];
PLAINTIFF’S VARIOUS REQUESTS RE
MOTIONS [85] [94] [111] [112]
Before the Court are two motions to dismiss. Defendant JPMorgan Chase
Bank, N.A. (“JPMorgan”), filed a Motion to Dismiss Complaint (the “JPMorgan
Motion”) on August 29,2017. (Docket No. 67). Pro Se Plaintiff Russell Rope filed
an Opposition on September 8, 2017 (Docket No. 76), to which JPMorgan replied on
September 29, 2017. (Docket No. 92). Plaintiff filed an unsolicited Response in
Opposition to that Reply on October 30, 2017. (Docket No. 105).
On September 28, 2017, Defendants Apple Inc., Facebook, Inc., Alphabet, Inc.,
and Twitter, Inc. (together, “Apple Defendants”) also filed a Motion to Dismiss (the
“Apple Motion”). (Docket No. 88). Plaintiff did not timely file an Opposition to the
Apple Motion, as the Apple Defendants point out in their Response in Support of
Motion to Dismiss, filed on Qctober 13, 2017. (Docket No. 98). After the Apple
Defendants’ Response was filed, Plaintiff filed what appears to be an Opposition, also
dated October 13,2017. (Docket No. 100). He filed another Opposition on October
30, 2017. (Docket No. 108).
The Court determined that these Motions were appropriate for submission on
the papers without oral argument, and vacated the hearings on the Motions. (See
Docket No. 103).

CIVIL MINUTES—GENERAL

1

SCaS'e 2:17-cv-04921-MW.

A Document 114 Filed 12/20/17

ge 2 of 11 PagelD#:667

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

Under Local Rule 7-12, Plaintiff s failure to file an Opposition in response to
the Apple Motion within the deadline may be deemed consent to the granting of the
Apple Motion. However, as the Court indicated in its Order Denying Plaintiffs Ex
Parte Application, dated October 30,2017, the Court will consider all the papers filed
on the Motions, including Plaintiffs untimely and unsolicited additional filings.
(Order Denying Ex Parte Application at 2 (Docket No. 109)).
For the reasons set forth below, the Court GRANTS the JPMorgan Motion and
the Apple Motion with leave to amend. The Complaint fails to comply with the
pleading requirements of Federal Rule of Civil Procedure 8. Moreover, although the .
Court cannot determine it conclusively at this time due to the confusing nature of the
Complaint, it appears that Plaintiff has already brought similar actions in state and
federal court against the same defendants, such that his claims in this action are barred
by res judicata.
■
Plaintiff also filed various other requests related to the Motions: Request for
Order and Explanation (Docket No. 85); Request and Notice of Opposition (Docket
No. 94); Request for Order for Opposition Against Defendants’ Motions to Dismiss
(Docket No. Ill); and another Request for Order for Opposition Against Defendants’
Motions to Dismiss. (Docket No. 112). These Requests are all DENIED as moot.
I.

BACKGROUND

Plaintiff initiated this action in July 2017 against Defendants JPMorgan Chase
Bank, N.A., Apple Inc., Facebook, Inc., Alphabet, Inc., and Twitter, Inc. {See
Complaint (Docket No. 17)). The 166-page Complaint contains 310 paragraphs, 66
exhibits and sets forth 20 claims for relief against all Defendants, each of which
incorporates all the preceding paragraphs: (1) RICO violation of 18 U.S.C. § 1962(c);
(2) RICO conspiracy of 18 U.S.C. § 1962(d); (3) fraud; (4) computer fraud; (5) wire
fraud; (6) criminal threats; (7) obscene, threatening, and annoying communications;
(8) stalking; (9) assault and battery; (10); espionage; (11) theft of trade secrets; (12)
obstruction ofjustice; (13) false imprisonment; (14) perjury; (15) grand theft &

CIVIL MINUTES—GENERAL

2

Case 2:17-cv-04921-MW.

A Document 114 Filed 12/20/17

ge3ofll PagelD#:668

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: December 20,2017

robbery; (16) defamation; (17) unfair competition; (18) intentional infliction of
emotional distress; (19) cybersquatting; (20) employment discrimination.
Plaintiff describes this action as “a mashup and major update of three separate
but connected and originally incorrectly filed cases.” (Compl. 1). He alleges that
Defendants are “criminals breaking the law not limited to abusing power Internet and
technology corporations to defraud Plaintiff of life, freedom, business, a domain
name, and perssonal relationships [sic].” (Id). Essentially, Plaintiff claims that
“Defendants engaged in a multi-district conspiracy to defraud Plaintiff of money and
property.” (Id. If 11). Plaintiff refers to Defendants as the “Bad Karma Enterprise”
(Id. Tf 13), and alleges they have been “terrorizing” Plaintiff for over a decade. (Id.\
35). It appears that the conspiracy reached all aspects of Plaintiff s life.
The Defendants have allegedly “attempt[ed] to steal, sabotage, and control
business [and] gone so low as to interfere with personal relations.” (Compl. 30).
Defendant JPMorgan is allegedly withholding money after tricking Plaintiff into
signing an indemnity agreement, and engaged in employment discrimination by
removing job postings from its website before Plaintiff could apply to them. (Id. ^f
33, 84-86). Defendant Facebook and its subsidiary, Instagram, are sabotaging
Plaintiff s accounts by interfering with friend requests and censoring posts, and is
“get[ing] away with cyber murder over and over.” (Id. ffif 50, 52, 53). Apple has
disabled Plaintiffs accounts and webpages and interfered with his smart phone
connectivity and social media life. (Id. 51). Defendant Alphabet and its subsidiaries
likewise have terminated and sabotaged Plaintiffs accounts. (Id. 54). Defendant
Twitter is also accused of “name and number hacks including cryptic message
harassment such as modifying URLs or hyper links in tweets to form harassing
messages.” (Id. 55).
Plaintiff appears to allege that Defendants have somehow conspired to steal the
“rise.com” domain name that Plaintiff intended to purchase by leaking the name to
people in the entertainment industry, even though Plaintiff had only told a few family
members about his intentions. (Compl. 65-76). Now, despite Plaintiffs secrecy,
the word “rise” is appearing in various movies, television shows, and advertisements.
CIVIL MINUTES—GENERAL

3

rjtpaSe 2:17-cv-04921-MWI

A Document 114 Filed 12/20/17

ge4ofll PagelD#:669

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

(Id). People have allegedly attempted to kill Plaintiff in attempts to steal this domain
name. (Id. X149). Defendants are alleged to have gained access to Plaintiffs
unpublished book, from which they are stealing trade secrets. (Id. 90).
Plaintiff alleges that Defendants are hacking his equipment to spy on him and
stalk him, to sexually harass him, and to engage in sex trafficking, (Compl. 56,
58). He also alleges he is being physically “stalked ... all around tinsel town” by
females who wear clothes with threatening messages, cars with Florida license plates,
and Australians. (Id.
114-17). Plaintiff also alleges that a series of car accidents
are a part of the conspiracy orchestrated by Defendants. (Compl. 123-26). The conspiracy is also alleged to involve health care fraud extending back to
Plaintiffs birth in 1982. (Compl. % 109). Defendants are accused of “using
dermatology and other health care related fraud to control the Plaintiff; to trap the
Plaintiff in his own skin.” (Id.). Doctors are accused of “aging” Plaintiff, making him
wait in examination rooms, and prescribing medication with dangerous side effects.
(Id. 110-12).
^
Plaintiff lists “additional problems,” including “Google Maps/iPhone Hack”,
“Car Computer Hack,False System Malfunction Errors”, “Pharmacy and Doctor
Office Harassment”, “License Plate Stalking Hacks”, and “Food, Gas Station, and
Entertainment Hacks”. (Id. 61). Plaintiff also makes allegations against parties not
named as Defendants in the action, such as PayPal, Spotify, Comm 100, Mail Chimp,
Uber, Model Mayhem, and AirBnb, as well as door men at night clubs, law
enforcement officers, the court system, the EEOC, Plaintiffs family members, and
Plaintiffs landlords and roommates. (Id. ffij 60, 78, 80-83, 103-5. 113-15, 123-26,
129-41). Plaintiff also suggest that Facebook CEO Mark Zuckerberg, Apple CEO
Tim Cook, and Twitter CEO Jack Dorsey are involved directly in the conspiracy. (Id.
152, 154, 157). Plaintiff further alleges that Defendants are publishing fake news
online and on television to control Plaintiff. (Compl. f 108).

CIVIL MINUTES—GENERAL

4

Case 2:17-cv-04921-MWl

A Document 114 Filed 12/20/17

ge 5 of 11 Page ID %Q70
\

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: December 20, 2017

The JPMorgan Motion seeks dismissal of the Complaint pursuant to Rule
12(b)(6) and the doctrine of res judicata. The Apple Motion also seeks dismissal
pursuant to Rule 12(b)(6) and res judicata, as well as Rule 8.
n.

FAILURE TO STATE A CLAIM
A. Legal Standard

“Dismissal under Rule 12(b)(6) is proper when the complaint either (1) lacks a
cognizable legal theory or (2) fails to allege sufficient facts to support a cognizable
legal theory.” Somers v. Apple, Inc., 729 F.3d 953, 959 (9th Cir. 2013). “Federal
Rule of Civil Procedure 8(a)(2) requires only ‘a short and plain statement of the claim
showing that the pleader is entitled to relief,’ in order to ‘give the defendant fair notice
of what the ... claim is and the grounds upon which it rests ....” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41, 47
(1957)).
In ruling on the Motion under Rule 12(b)(6), the Court follows Bell Atlantic and
Ashcroft v. Iqbal, 556 U.S. 662 (2009). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter ... to ‘state a claim to relief that is plausible on
its face.’” Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 570). The Court
must disregard allegations that are legal conclusions, even when disguised as facts.
See id. at 681 (“It is the conclusoiy nature of respondent’s allegations, rather than their
extravagantly fanciful nature, that disentitles them to the presumption of truth.”);
Eclectic Properties E., LLC v. Marcus & Millichap Co., 751 F.3d 990, 996 (9th Cir.
2014). “Although ‘a well-pleaded complaint may proceed even if it strikes a savvy
judge that actual proof is improbable,’ plaintiffs must include sufficient ‘factual
enhancement’ to cross ‘the line between possibility and plausibility.’” Eclectic
Properties, 751 F.3d at 995 (quoting twombly, 550 U.S. at 556-57) (internal citations
omitted).
The Court must then determine whether, based on the allegations that remain
and all reasonable inferences that may be drawn therefrom, the complaint alleges a
CIVIL MINUTES—GENERAL

5

OCase 2:17-cv-04921-MWl

A Document 114 Filed 12/20/17

ge 6 of 11 Page ID #:671

i

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

plausible claim for relief. See Iqbal, 556 U.S. at 679; Cafasso, U.S. ex rel. v. Gen.
Dynamics C4 Sys., Inc., 637 F.3d 1047, 1054 (9th Cir. 2011). “Determining whether
a complaint states a plausible claim for relief is ‘a context-specific task that requires
the reviewing court to draw on its judicial experience and common sense.’” Ebner v.
Fresh, Inc., 838 F.3d 958, 963 (9th Cir. 2016) (quoting Iqbal, 556 U.S. at 679).
Where the facts as pleaded in the complaint indicate that there are two alternative
explanations, only one of which would result in liability, “plaintiffs cannot offer
allegations that are merely consistent with their favored explanation but are also
consistent with the alternative explanation. Something more is needed, such as facts
tending to exclude the possibility that the alternative explanation is true, in order to
render plaintiffs’ allegations plausible.” Eclectic Properties, 751 F.3d at 996-97; see
also Somers, 729 F.3d at 960.
B. Discussion
Apple Defendants argue that the Complaint fails to satisfy Rule 8’s basic notice
requirements. (Apple Mot. at 6). Rule 8 requires pleadings to contain “a short and
plain statement of the claim showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2).
A court may dismiss a complaint “for failure to satisfy Rule 8 if it is so
confusing that ‘its true substance, if any, is well disguised.’” Bailey v. BACHome
Loan Serv., LP, No. CV 11-648-LEK (BMKx), 2012 WL 589414, at'*l (D. Haw. Feb.
12, 2012) (quoting Hearns v. San Bernardino Police Dep 7, 530 F.3d 1124, 1131 (9th
Cir.' 2008). Indeed, the Ninth Circuit has affirmed dismissal of excessively long,
redundant, and confusing complaints for failure to comply with Rule 8. See, e.g.,
McHenry v. Renne, 84 F.3d 1172, 1178 (9th Cir. 1996) (affirming dismissal of
complaint that was “argumentative, prolix, replete with redundancy, and largely
irrelevant”); Corrigan v. Cal. State Legislature, 263 F.2d 560, 566 (9th Cir. 1959)
(affirming dismissal of a 150-page complaint describing plaintiffs thoughts, worries,
hearsay conversations, frustrations and difficulties with doctors and insurance
companies, and medical reports); Nevijel v. North Coast Life Ins. Co. , 651 F.2d 671,
675 (9th Cir. 1981) (affirming dismissal of complaint that was “verbose, confusing
CIVIL MINUTES—GENERAL

6

Case 2:17-cv-04921-MWl

A Document 114 Filed 12/20/17

ge 7 of 11 PagelD#:672

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: December 20,2017

and almost entirely conclusory”); Hatch v. Reliance Ins. Co,, 758 F.2d 409, 415 (9th
Cir. 1985) (affirming district court’s dismissal of complaints that “exceeded 70 pages
in length, were confusing and conclusory, and not in compliance with Rule 8”);
District Courts regularly dismiss complaints containing indecipherable claims
for relief. See, e.g., United States ex rel. Mateski v. Raytheon Co., No. CV 06-3614ODW (KSx), 2017 WL 1954942 (C.D. Cal. Feb. 10, 2017) (dismissing with leave to
amend 134-page, undecipherable complaint); Adams v. California, No. CV 02-5419CRB, 2003 WL 202638, at *3 (N.D. Cal. Jan 24, 2003) (dismissing claims with
prejudice where “Plaintiff has not stated a coherent claim against any of the
defendants”); George v. Dutcher, No. CV 16-679-RCJ (VPCx), 2017 WL 1393064, at
*2 (D. Nev. Feb. 28, 2017) (“[PJlaintiff s largely incomprehensible narrative makes it
nearly impossible for the court to identify the factual or legal basis for her claims or
the nature of her requested relief.”).
Here, Plaintiffs Complaint is 166 pages long, and filled with rambling,
unrelated allegations against the named Defendants as well as his doctors, strangers on
the street, law enforcement officers, doormen at night clubs, his brothers, his
landlords, and myriad other companies and individuals. Plaintiff includes every slight
and setback he has encountered in the last several years in the Complaint, claiming
that they are all part of one conspiracy. He attaches 66 exhibits which only add to the
confusion. For example, Exhibits 1 and 2 to the Complaint are lists of other suspected
conspirators, ranging from Plaintiffs high school and college classmates and his
siblings to attorneys he has contacted and companies like AT&T and MySpace.
(Docket Nos. 17-13, 17-4). Exhibit 4 appears to be a collage of appearances of the
number “187” in Plaintiffs social media pages. (Docket No. 17-6).
It is neither Defendants’ nor the Court’s responsibility to “expend time and
effort searching through large masses of conclusory, argumentative, evidentiary and
other extraneous allegations in order to discover whether the essentials of claims
asserted can be found in such a melange.” Jacobson v. Schwartzenegger, 226 F.R.D.
395, 397 (C.D. Cal. 2005) (citation omitted) (dismissing 200-page complaint with
leave to amend for failure to comply with Rule 8). Plaintiffs conclusory assertion
CIVIL MINUTES—GENERAL

7

SCase 2:17-cv-04921-MW.

A Document 114 Filed 12/20/17

ge 8 of 11 Page ID #:673

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Title:
Russell Rope -v- Facebook, Inc., et al.

Date: December 20, 2017

that “Rule 8 does not apply” because Plaintiff did provide short and plain statements
(Docket No. 108) does not make it so.
The Motions are therefore GRANTED. The Court will permit Plaintiff one
opportunity to amend his Complaint to'remove excessive redundancy, allegations
irrelevant to the claims for relief, and conclusory or excessively argumentative
allegations. Because the Court concludes that the Complaint fails to meet the
requirements of Rule 8, it does not reach Defendants ’ arguments regarding why the
Complaint fails to state each of the 20 claims for relief, which in any case appear to
largely point to the conclusory, vague, and confusing nature of the allegations.
Defendants may raise these arguments again in response to Plaintiff s First Amended
Complaint, if there is one.
III.

RES JUDICATA

Both Motions argue that some of Plaintiffs’ claims are barred by res judicata.
(JPMorgan Mot. at 5-7; Apple Mot. at 7 n.3). Under the doctrine of res judicata, “a
final judgment on the merits bars further claims by parties or their privies based on the
same cause of action.?’ In re Schimmels, 127 F.3d 875, 881 (9th Cir. 1997)* The .
doctrine precludes a party .from re-litigating (1) the same claim, (2) against the same
party, (3) when that claim proceeded to a final judgment on the merits in a prior
action.” MHCFin. Ltd. P'ship v. City ofSan Rafael, 714 F.3d 1118, 1125 (9th Cir.
2013). Federal courts are required to give state court judgments the same preclusive
effect they would be given by other courts in that state. Brodheim v. Cry,5%4 F.3d
1262, 1268 (9th Cir. 2009).
JPMorgan argues that, although Plaintiffs Complaint in this action contains 20
vague claims for relief, the factual allegations against JPMorgan are the same as the
allegations in Plaintiffs state court action, filed in 2016: Russell Rope v. JP Morgan
Chase & Co., Case No. BC608501. Essentially, both actions alleged that JPMorgan
closed Plaintiffs account, withheld his money, tried to force him to sign an indemnity
agreement, and engaged in employment discrimination. (JPMorgan Mot. at 6, Ex. A).
The superior court sustained JPMorgan’s demurrer in that action, which was based on
CIVIL MINUTES—GENERAL

8

Case 2:17-cv-04921-MWl

A Document 114 Filed 12/20/17

ge 9 of 11 Page ID #:67A

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

Plaintiffs failure to state a claim upon which relief could be granted. The case was
subsequently dismissed with prejudice. (See id., Exs. B, D, and E).
Likewise, the Apple Defendants argue that to the extent Plaintiffs allegations
in this Complaint are based on the same facts and evidence alleged in his prior state
court action against Apple and its CEO, Facebook and its CEO, Alphabet, and
Twitter, which was dismissed in its entirety without leave to amend, the current claims
are barred by res judicata. (Apple Mot. at 6-7, n.3). The similar state court action,
Russell Rope v. Apple, Inc., et al., Case No. BC607769, was filed in 2016. (See id.,
Ex. B). In 2014, Plaintiff also attempted to file a similar case in federal court against
the same defendants as the current action (excepting JPMorgan). That case, Russell
Rope v. Facebook, Inc., et al, Case No. 2:14-cv-04900 (C.D. Cal), was dismissed in
its entirety by the Magistrate Judge for failure to state a claim upon which relief could
be granted. (Id., Ex. A at 10 (“Plaintiffs Complaint contains conclusory allegations
but not specific facts to support a claim of conspiracy.”).
Plaintiff himself refers to and incorporates by reference all of the prior actions
described above. He acknowledges that “[tjhis case was originally filed incorrectly as
three individual cases. It now makes most sense to refile as a single new case,” He
appears to think that by filing this case and paying the filing fee, he “bypass [ed] the
previously false frivolous case block, which is allegedly a trick used against poor pro
se litigants legitimately filing in forma pauperis.” (Compl. 41). He says this action
is “most similar” to the 2014 federal action against Facebook, et al. (Id. 45). He
attaches that federal court complaint as Exhibit 41 to the Complaint. (Docket No. 1743). He also references the state court action against JPMorgan throughout the
Complaint, even incorporating it by reference as Exhibit 45 to the Complaint. (See
Compl. ffll 41, 85, 264).
Plaintiff argues in Opposition to the JPMorgan Motion that res judicata cannot
apply because Defendants “basically kidnapped Plaintiff thereby making him unable
to attend court.” (Opp. at 2). This allegations is irrelevant to the three elements of res
judicata, listed above. He further asserts that res judicata does not apply because the
Complaint in this action is “brought under a different title and with a lot of new
CIVIL MINUTES—GENERAL

9

^Casfe 2:17-cv-04921-MWF

\ Document 114 Filed 12/20/17

,e 10 of 11 Page ID #:675

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

subject matter.” (Id.). This, too, may not be relevant to the application of res judicata.
The “true inquiry” for res judicata purposes is whether the “claims arose from the
same transactional nucleus of facts.” United States v. Liquidators ofEuropean Fed.
Credit Bank, 630 F.3d 1139,1151 (9th Cir. 2011); Turtle Island Restoration Network
v. US. Dep’t ofState, 673 F.3d 914, 918 (9th Cir. 2012) (holding that where claims
arise out of “same transactional nucleus of facts” res judicata may apply even if
actions present different legal claims).
He further suggests that res judicata should not apply because he was
“fraudulently denied his rights” and because the prior courts made “bad decisions.”
(Opp. at 2, 3). The remedy for Plaintiff s dissatisfaction with any prior rulings would
have been to file motions to vacate the judgment or for reconsideration, or to appeal
the decisions, not to re-plead the same allegations in a new Complaint.
Although the confusing nature of the allegations of the Complaint make it
impossible to determine conclusively that this action is barred by res judicata, it
appears highly likely that at least some of the claims are so barred. To the extent
■ Plaintiff chooses to amend his Complaint to comply with Rule 8, as described above,
he must also ensure that his Complaint raises only claims that have not already been
dismissed on the merits. That Plaintiff may not agree with the decisions of the courts
in the prior actions is irrelevant to their preclusive effect in this action, and he may not
raise the same allegations again here.
’
IV.

^ *.

CONCLUSION

Accordingly, the Motions are GRANTED with leave to amend. Although the
Court doubts Plaintiff can state a non-ffivolous claim that is not barred by res judicata,
Plaintiff may file a First Amended Complaint, if any, consistent with the Court’s
instructions above on or before January 16,2018.
IT IS SO ORDERED.

CIVIL MINUTES—GENERAL

10

Case 2:17-cv-04921-MWF

f

V Document 114 Filed 12/20/17

,e 11 of 11 Page ID #:676

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV17-04921-MWF (PLAx)
Russell Rope -v- Facebook, Inc., et al.
Title:

Date: December 20,2017

The Court notes that a party to this lawsuit does not have a lawyer. Parties in
court without a lawyer are called "pro se litigants." These parties often face special
challenges in federal court. Public Counsel runs a free Federal Pro Se Clinic at the Los
Angeles federal courthouse where pro se litigants can get information and guidance.
The clinic is located in Room G-19, Main Street Floor, of the United States
Courthouse, 312 North Spring Street, Los Angeles, California 90012. For more
information, litigants may call (213) 385-2977 (x 270) or they may visit the Pro Se
Home Page found at http://prose.cacd.uscourts.gov/federal-pro-se-clinics . Clinic
information is found there by clicking "Pro Se Clinic - Los Angeles".

CIVIL MINUTES—GENERAL

11

5v}*

#1&-5616

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,

.

Attachment to [Emergency] Petition for Extraordinary Writ(s)
Over The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921

APPENDIX H

Cover Sheet & Copy of Most Recent (Supplemental) Reports/Cease & Desist & Demand
Letters Currently Justice Obstructed @ LAPD & BHPD

/s/ RTTSSETJ/ROPE 4/10/2020
Petitioner & Plaintiff In Pro Per

Incident#: 10-53086

Beverly Hills Police Department

Russell Rope,
Victim,
vs.
John & Jane Does 1 to 100,
Perpetrators,
Supplemental Report
Public Records Request
Cease & Desist & Demand
ATTN Chief Sandra Spagnoli

Regarding Incident Number 10-53086 @ 10/4/2019
• Stalking / Harassment: Mostly Around Beverly Hills Public Library
• + Conspiracy: With Racketeer Influenced Corrupt Organization (“RICO”)
• + Fraud: Dishonest Means for Deprivation of Money, Property & Legal Rights
L Summary
Russell Rope is a native local original genius with priceless intellectual property and an
active federal lawsuit currently on the docket in the Supreme Court of The United States.
It recently became necessary to report stalkers within the City of Beverly Hills; mostly
around the library, of which the victim is a card holding member with good reason and
every right to be on the premises. Stalkers have been harrassing, spying, and attempting
to entrap; all in relation to and following previous criminally obstructed complaints in
other jurisdictions. Stalkers are suspected to be puppets with more serious criminals
pulling strings and probably from locally. The tort for conspiracy holds violators
accountable for all causes of action where perpetrators have not only threatened life, but
actually tried to take it; therefore and independent of any third party framework,
misdirection, or fabrictions, this report should be taken as a serious death threat on a
very important and peaceful citizen minding their own business in your jurisdiction.

H Background
Russell has been spending a lot of time in Beverly Hills, for which he has a birthright
claim not simply limited to based on grandparents who lived within walking distance of
the library, but also and more importantly because he worked for the freedom to choose,
and plans to purchase real estate and conduct official business from here upon legal
victory or whatever first brings financial success. Russell was hoping to resolve the
issues being reported in federal court by now, had prepared a bulletproof side civil case
for Beverly Hills Courthouse against the same John Does from this report, for the
purpose of pro se investigation, but federal courts have been stalling, the completed
version of the perfect side complaint was not backed up and stored only on the computer
that was stolen as mentioned below (night before both the side complaint for BH and
Petition to SCOTUS were to be filed), so the time has come to involve local authorities.
FYI and with the utmost respect for first responders and good police officers, Russell is
pursuing very serious criminal claims against several corporations inclusive to, and if not
settled now, then later against, bad justice obstructors not limited to at LAPD and LASD.
BHPD “is,” over “was,” the last untainted local law enforcement in the area, which had
been part of a deciding factor in setting a permanent residency goal and why Russell did
not want to communicate with BHPD at all until after legal matters were settled and real
estate acquired. On that note, Russell also has a relevant claim to “The Mountain”
located @ 1652 Tower Grove Dr, Beverly Hills, CA 90210; based on fraud in conspiracy
with those recently in control of the property and affiliates as possible John Doe third
parties to the lawsuit in SCOTUS. Stalker puppet string pulling John Does also surely
tried to use BHPD and other local workers against Rusell while he has been working out
of the library and waiting on the slow DOJ, but that seems to have calmed down and
immediately following this report being started in person last month. Simple internal
BHPD investigation, if you do not already know, should turn up serious criminals not
directly affiliated with BHPD. Assume Russell already knows, and that his intent is best
where he mostly just want your honorable service, validation, support and protection.
HI. Research
Please read this entire document then begin researching the case history as documented
on the victim’s blog. Like terrorists minus a demands list, perpetrators have been
following the victim from home to home and city to city, entrapping, fabricating,
obstructing, pushing victim out of life, copying, assaulting, and stealing in a cruel
criminal pattern of racketeering activity. The most recent addition to the claims now
legitimately falls under not limited to jurisdiction of Beverly Hills Police Department.
Victim is a card holding member of the Library, which he has been using regularly all
year, has other family, friends, and acquaintances either working or residing within the
city, none of whom have any legitimate reason to be in the library, and some of whom
are highly suspect and should be no less than investigated.

A. First Amended COMPLAINT (“FAC”) @ https://russellroDe.com/blog/?tag=civil
1. Evidence (.pdf - Minus Lodged & Sealed On Blog)
* Criminally Obstructed @ Central District Court of California
* Criminally Obstructed @ Ninth Circuit Court of Appeals
* Relevant to Everything Including BHPD Local Investigation
B. Petition for Writ of Certiorari @ https://russellrope.com/blog/7tag-civil
* Petitioning for Rehearing @ Supreme Court of The United States
* SCOTUS = FYI & Not for BPHD to Investigate
C. Timeline of Obstruction of Justice:
Russell is a brave reactor peacefully protecting a life of hard work in opposition to
criminal instigators with greedy motives and evil tactics evolving from abuse of
power hacks to entrapments with false imprisonment based on fabrications, to
gang stalking, battery, a broken foot, grand theft, repetition, etc. LAPD is
supposed to be reopening a new investigation into the following LAPD reports. It
is of preference for departments to do completely independent investigations with
only RR support and relaying of relevant discovery. This part is mostly FYI:
1. Threats > Fraud/Conspiracy Reported @ LHSD (2013-2014)
o Lost Hills Sheriff Department Neglected Multiple Reports
o So I Filed Lawsuit & Applied For CCW
’
■ LHSD False Arrest/5150 To Deny Already Delayed CCW & Steal Gun
■ Resulted in Getting Kicked Out of Parents House
■ Would have been blessing minus criminal roommates since.
2. Reported RICO etc @ DA (2013-2014)
o Started Contacting All Law Enforcement Neglecting
■ DA Office Removed File Upload From Contact Form
■ After Uploaded PDF Case/Report File
■ USSS, FBI/ic3.gov, DOJ, DA High Tech Crimes, etc.
3. Fraud Reported @ Hwood LAPD (Followed from Agoura Hills) (2015-2016)
o Multiple Attempted / Obstructed Reports (RICO; Bank/Loan Fraud,
Housing/Entrapment)
o Supplemental Report To Detectives Cantrell & Rodriguez Disappeared
■ Rough Draft of Original Complaint Before FAC
4. Threats Reported @ HLAPD + Supplemental Report (2017?)
o Neglected Report Led to Vandalism etc.
* ■ Named Perpetrator in Direct Conspiracy w/RICO Spy John Doe(s)
■ Was quoting contents of private email to Sean Parker & Peter Thiel

5. Vandalism Reported @ HLAPD + Supplemental Report (2017-2018)
o Multiple Neglected Reports Resulted in Grand Theft Auto
■ Slashed Tires Report
■ Engine Termination Report
■ No Victim Comp Resulted in No Smog/Reg & LAPD Tow/Theft
6. Battery Reported @ WHSD (2018)
o Detectives Did Not Follow Up or Return Multiple Calls
■ Jumped by Camera Stalker(s) Outside Roxy After Leaving 10AK
• Perpetrators On Security Video & Linked to John Doe
7. Grand Theft Reported @ LAPD 6th St Officers @ Subway Station (2019)
o Detective Did Not Follow Up or Return Call
o Perpetrators Suspected to be Stalkers Possibly Fake Security
■ Should Have Been On Surveillance & Possibly Linked to Tap Card
8. Stalking Reported @ HLAPD (9/2019)
o Most Recent Report
• Case Can be Solved by Solving the Others & Root of Obstruction
9.
o
o
o

Entrapment @ UCLA (7/2019) To Be Reported To Internal Investigation
Ridiculous On Campus Stalking While Using Library Turned False Arrest
Reported to FBI & Case Rejected by City Attorney’s Office
Led by Officer Chavez = Suspected Real Name of Trap LADOT Officer
■ Complete Setup, Computer/Library Disruption, Number 3 & 1 Hacks
■ Similar Pattern to Prior Entrapment (Attempted Racial War)

10. Stalking @ Beverly Hills Public Library (10/2019)
IV. Investigation
A. Internal: The best and easiest place to start investigating would be at BHPD who
is suspected to have been coerced into not only stalking around the Beverly Hills
Public Library area, but who has also been obstructing since the initial report for
the same reason. Defendants have been framing the victim’s character and
abusing power over both technology and authority; locally, trying to get people to
snoop as if they hope to entrap when victim is honestly minding his own business
and going out of his way to avoid people.
B. license Plates: Next, Russell has been taking photos of license plates on cars
belonging to suspected stalkers. They are usually plates contain harassing
messages formed from their letters and numbers, or belong to a camera stalker,
but there are other things like the car full of women who blocked the victim’s path
en route to the library who then made gun signals with their hands followed by

another man trying to fight and later on a woman who literally tried to run the
victim over on the other side of town this weekend. These must be investigated to
see if which are real or vanity plates, when the numbers were assigned, who the
registered owners are and what are the common links between them and John
Does. Everything can be proven through proper cooperative investigation and
Russell would really like to continue to do as much of this work himself as
possible if not actively participating, for the purpose of acquiring real information.
What investigation tools does BHPD have?
• Does BPHD use Palantir technology?
• What information is readily available?
o NCIC Access?
o Phone number & DMV/registratiori lookup?
o Background check?
>
• Can you legally show me and let me use your technology?
• If not, please deputize me or take me to someone who can? Seriously.
C. Library Cameras
• Who has access? Does BHPD have access without subpoena?
o Can you show me the security room?
• How long is video stored? J
• Answers first, then more information about what we are looking for....
D. Library Computer Network Software
• Screen Watching/Sharing Capabilities
• Who has access? Does BHPD have access without subpoena?
E. Library Member Records & Patrons
• Check to see if specific people have library cards and when issued.
o Do records show dates of card usage?
• Does BHPD have access without subpoena?
• Head librarian’s discretion to share information?
• Can we start getting identification from a few suspect library stalkers?
• Answers first, then more information about what we are looking for....
V. Requests
In addition to thorough investigation and sharing of information:
A. Meeting Requests:
• Chief & Who Ranks Higher? - This is now their legal responsibility.
• Mayor - For any support possible; to follow up on email sent by victim.
• District/City Attorney - Most importantly for victim compensation, but also
in preparation to press charges/arrest warrants if necessary.

• Feds - For more help with federal investigation of RICO
• Head Librarian & Head Library IT Admin - For access without BHPD
B. Additional Request
• Legal Support - District/City Attorney(s) connection should be enough....
• Victim Compensation - Advocate within BHPD? ASAP. I qualify for the
maximum by law, which could resolve a lot of issues.
• Witness Relocation/Protection - Beverly Hills > Hollywood Hills
• Freelance/Part-Time Work (on RR own case then possibly as needed)
C. Public Records Request
• This is document is to be treated like no less than a public records request.
• Active Involvement Joint Investigation For QA
o > (Greater Than) Information Acquired By BHPD Shared With RR
D. Cease & Desist
• Stop Creeping On Victim Like Stalkers
• Stop Obstructing Justice
• Stop Neglecting
E. Demands
• Justice As Requested
VI. Conclusion:: Response Requested ASAP!
In conclusion, greedy and envious criminals have taken almost everything that matters
most to the victim. There is no justification for their illegal actions, They have killed
relationships, pushed the victim out of his family, falsely imprisoned, stolen money,
physical property, and intellectual property, homes, his car, business, health, time, and
they must be brought to justice. The possible federal legal victory still provides the best
possible conflict resolution for all parties, but is not providing security or investigation
quick enough. You are not even being asked to make an arrest at this point, but rather to
protect and serve through the sharing of information, access, and connections that cost
nothing to you, BHPD, or the public; other than taxes that pay your salary to do this job.
Please help this near future permanent resident of the city out and join team honesty on
the rise to success.
YoursJTruly,
7s/ RUSSELLRO]
11/19/2019 © Copyright * Infinity
@ RussellRope
@ justice@russellrope.com
@ https://russellrope.com
@ 310-663-7655

Report #: 911-TBD
Los Angeles Police Department

Russell Rope,
“Plaintiff” > “Victim”
vs.
John & Jane Does 1 to 100,
Perpetrators/Defendants
Supplemental Report
Public Records Request
Cease & Desist & Demand

ATTN Chief Moore & Detective Klohr
Regarding Recent Reports With Front Desk Officers & Detective Klohr (Sep-Nov 2019)
• Stalking / Harassment Specifically Around Hollywood
• + Conspiracy: With Racketeer Influenced Corrupt Organization (“RICO”)
• + Fraud: Dishonest Means for Deprivation of Money, Property & Legal Rights
L Summary
Russell Rope is a native local original genius with priceless intellectual property and an
active federal lawsuit currently on the docket in the Supreme Court of The United States.
It recently became necessary to start yet another report at Hollywood LAPD triggered by
an increasingly concerning daily dose of stalkers within Los Angeles County; hi this
instance specific to the Hollywood area. Stalkers have been harrassing, spying, stealing,
assaulting, attempting to cause: more-than-enough-already serious loss and injury,
entrapment, peonage, and or death; all in relation to and following the contents of
previous obstructed complaints. Stalkers are believed to be puppets with more serious
criminals pulling strings as there is no other explanation for insanely repetitive patterns
of customized and coordinated attacks coming from unknown people. The tort for
conspiracy holds violators accountable for all causes of action where perpetrators have
not only threatened life, but actually tried to take it; therefore, and independent of any
third party framework, misdirection, or fabrictions, this report should be taken as a
serious death threat on a very important and peaceful citizen minding his own business

in your jurisdiction. Moreover, the victim is probably the only on this level, but not the
first to have been terrorized by this type of evil, and if obstruction continues, surely not
the last, which is another reason the people demand justice; for all.
H Background
Everything the victim has reported to any law enforcement is very obviously connected
to the same criminal racket reported in his federal lawsuit, and each neglected report or
obstruction basically excuses the violation and promotes the next, evolution of, and
copycat crime(s). Whether LAPD is protecting themselves or other government, the
victim’s worse than abusive family, other Defendants, or all the above, justice needs
truth and answers will arise from us collaborating or inevitably and forcibly through the
Department of Justice where it is possible that no mercy will be granted to any
conspirator/obstructor.
FYI and with the utmost respect for first responders and good police officers, Russell is
pursuing very serious criminal claims against several corporations inclusive to, and if not
settled now, then later against, bad justice obstructors being any who might have done
so little as misdirected or concealed information. Russell knows the law(s); specifically
corresponding to everything reported, would not waste time reporting if unable to allege
and prove all the elements of each violation, etc., so please do not bother with anymore
lies that inevitably until corrected make LAPD look bad. Simple internal LAPD
investigation, if you do not already know, should turn up serious criminals not directly
affiliated with LAPD who has never had a legitimate reason to hate on the true victim.
Assume Russell already knows and could probably bust anyone discoverable for a
multitude of crimes, but it is important for you to identify the sources on your own
merits, not only for redemption, but also to make the case stronger with enough leverage
for the best version of justice, and please trust Russell has the best intent where he
mostly just wants your honorable service, validation, support and protection; and to win
as planned in SCOTUS.
HI. Research
Please read this entire document then begin researching the case history as documented
on the victim’s blog and referenced below. Like terrorists minus a demands list,
perpetrators have been following the victim from home to home and city to city,
entrapping, fabricating, obstructing, pushing victim out of life, copying, assaulting, and
stealing in a cruel criminal pattern of racketeering activity.
A. First Amended COMPLAINT (“FAC”) @ https://russellrope.com/blog/?tag=civil
1. Elvidence (Attachment / .pdf - Minus Lodged & Sealed On Blog)
* Criminally Obstructed @ Central District Court of California
* Criminally Obstructed @ Ninth Circuit Court of Appeals
* Relevant to Everything Including LAPD Local Investigation

B. Petition for Writ of Certiorari @ httDs://russelIrope.com/blog/?tag=civil
* Petitioning for Rehearing @ Supreme Court of The United States
* SCOTUS = FYI & Not for LAPD to Investigate
C. Timeline of Obstructed of Justice/Police Reports:
Russell is a brave but civil reactor peacefully protecting a life of hard work in
opposition to criminal instigators with greedy motives and evil tactics evolving
from abuse of power hacks to entrapments with false imprisonment based on
fabrications, to gang stalking, battery, a broken foot, grand theft, repetition,, etc.
LAPD is supposed to be reopening a new investigation into the following LAPD
reports. It is of preference for departments to do completely independent and
transparent (not publicized) investigations with only Russell’s relaying of relevant
discovery unless otherwise discussed or agreed upon.
1. Threats > Fraud/Conspiracy Reported @ LHSD (2013-2014)
o Lost Hills Sheriff Department Neglected Multiple Reports / Threats
■ Filed Lawsuit & Applied for CCW
’
■ False Arrest/ 5150 to Deny Already Delayed CCW & Steal Gun
■ Resulted in Getting Kicked Out of Parents’ House
® Blessing Minus Stalking & Criminal Roommates
■ '

2. Reported RICO etc. @ DA etc. (2013-2014)
o Started Contacting All Law Enforcement Neglecting
■ DA Office Removed File Upload From Contact Form
After Uploaded PDF Case/Report File
■ USSS, FBI/ic3.gov, DOJ, DA High Tech Crimes, etc.
3. Fraud Reported @ Hollywood LAPD (Followed From Agoura) (2015-2016)
o Multiple Reports (RICO; Bank/Loan Fraud, Housing/Entrapment)
o Supplemental Report to Detectives Cantrell & Rodriguez
■ Allegedly Disappeared; Rough Draft of Complaint Before FAC
4. Threats Reported @ HLAPD + Supplemental Report (2017?)
o Neglected Report Led to Vandalism etc.
■ Named Perpetrator in Direct Conspiracy w/ RICO Spy John Doe(s)
• Quoted private email that day to Sean Parker & Peter Thiel
5. Vandalism Reported @ HLAPD + Supplemental Report (2017-2018)
o Multiple Neglected Reports Resulted In Grand Theft Auto
■ Slashed Tires Report
V ■' Engine Termination Report
• No Victim Comp Resulted in No Smog / Reg & LAPD Tow
• Who Bought Russell’s Jeep? How much? Relevant Info Plz

>-

6. Battery Reported @ WHSD (2018)
o Detectives Did Not Follow Up or Return Multiple Calls
■ Jumped By Camera Stalker(s) Outside Roxy After Leaving 10AK
■ Perps Would Have Been On Security Video & Linked to John Doe(s)
7. Grand Theft Reported @ LAPD6TH (2019)
o Detective(s) Did Not Follow Up or Return Call
o Perpetrators Suspected To Be Stalkers Possibly Fake Security
■ Should Have Been On Metro Surveillance & Possibly Linked to Tap
■ Also Similarly Stole iPhone Months Earlier (2018); Not Reported
8. Stalking Reported @HLAPB (9/2019)
o Most Recent Report
■ Case Can be Solved by Solving the Others & Root(s) of Obstruction
■ Wheels Stalkers, Gym Stalkers, AGS Stalkers, Bus Stalkers, etc.
■ Gym Stalking Just Got Worse Reported @ Officer Menke
(11/21/2019)
9.
o
o
o

Entrapment @ UCLA (7/2019)
Ridiculous On Campus Stalking While Using Library Turned False Arrest
Reported to FBI & Case Rejected by City Attorney’s Office
Led by Officer Chavez = Suspect Real Name of Entrapment LADOT Officer
■ , Complete Setup, Computer/Library Disruption, Number,3 & 1 Hacks
■ Similar Entrapment Before Case Progression
■ Attempted Racial War, Patterns of Misdirecting Tactics

The incomplete recent addition to reports now involves another wrongful arrest / false
imprisonment, illegal search and seizure, harassment, stalking, attempted assault,
entrapment, etc. while on campus using the public library @ UCLA. Victim is a card
holding member of the library with many levels of affiliation to the university, which he
had been using daily for months without causing any problems prior to these failed
violations resulting in both a ban and no file rejection of UCLA PD by the city attorney’s
office. This is relevant to the false arrest in the Hollywood Hills because UCLA PD
similarly tried to frame the victim with a ridiculous motive of racism, was playing into
other distinguishing patterns of the same racketeering activity, and the name of the main
bad cop was the same as the suspected real name of the entrapping LADOT officer
whose identity appears to be worse than illegally concealed on the LAPD report. This
must be no less than investigated. There was no moving truck on the day in question.
Who called/sent LADOT officer up to the off grid cul de sac?
HI. Investigation
A. Start With All Previous Hollywood LAPD Reports

The best and easiest place to start investigating would be at LAPD who is
suspected to have been coerced by Defendants who have been framing the
victim’s character and abusing power over both technology and authority. What
happened with each of the aforementioned LAPD reports, why, who made
decisions to neglect and/or ordered obstructions? What third parties have been in
communication with LAPD regarding the victim, his case, and for what reason(s)?
Next, Russell has been taking photos of license plates on cars belonging to
suspected stalkers. The plates usually contain harassing messages formed from
their letters and numbers, or belong to a camera stalker, but there are other things
like the car full of women who blocked the victim’s path en route to the library
who then made gun signals with their hands followed by another man trying to
fight and later on a woman who literally tried to run the victim over on the other
side of town this weekend. These things must be investigated to see what are the
common links between them and damage causing John Does. Everything can be
proven through proper cooperative investigation and Russell would really like to
continue to do as much of this work himself as possible with your guidance if not
actively participating; for the purpose of acquiring real information.
A- Questions:
What investigation tools / resources does LAPD have?
• Does LAPD use Palantir technology? (Owned by Suspect Peter Thiel)
o httPs://www.voutube.com/watch?v=aJ-u7vDwC6g
• What information is readily available?
o NCIC Access? Background check?
o Phone number & DMV/registration lookup?
• Can you legally show me and let me use your technology?
• If not; please deputize me or take me to someone who can? Seriously.
What access does LAPD have to Los Angeles Public Libraries (“LAPL”)?
Re: Library Cameras, Computer Network, Member Records & Patrons
• Who has access? Does LAPD have access without subpoena?
o Can you show me the security room?
• How long is video stored?
• Screen Watching/Sharing Capabilities?
>
• Can we start getting identification from a few suspect library stalkers?
• Answers first, then more information about what we are looking for....
Who is the highest ranking justice obstructor and why are they obstructing?
o Thought it was captains at Hollywood LAPD, but suspect it goes higher up
@ not limited to LAPD. Palka, and probably Zarcone before him, are
responsible on some level but it looks like Palka currently reports to a
suspect Jewish Deputy Chief Eisenberg @
http://assets.lapdonline.org/assets/pdfrOrg%20Chart%209-l-19.pdf

What Do You Know About The Jew lie Theory?
Investigate Ranking Jews @ Hollywood LAPD and/or LAPD
\ • Not a hater; just wearing the hat of detective trying to figure out how and
why justice was obstructed and believe initial character frame started out
as fraud faith based false entitlement over free will. There was an officer
, Grossman who interrupted the report with detective Cantrell. He alleged
to having been on victim’s evil older brother’s payroll for event security, yet
regardless of suspected ulterior motives, gave credibility to victim’s claims
as he was questioned in front of Detective. Grossman and Eisenberg are
Jewish names, and Jews who have delusional aspirations of making a name
off exploitation have been hating on victim the more he distances himself
and minds his own business.
Can We Start Investigating A Long List Of License Plates? Interstate?
o Vanity Plates or Random, Assignment Dates, Other Mutual Connections
Are You Prepared To Arrest The Highest Level Obstructers & Perpetrators?
o Would you arrest your own boss? How about their boss, etc.?
, o If not, how about employing me to put my name on everything?
Does law enforcement have easy access to personal records for public services
such as DPSS, MediCal, and CalFresh, or know how Defendants might be
accessing all of that info other than hacking my phone?
o Someone with access to all the above is using that info to stalk and harass.
IV. Requests
A. Please (Re)Investigate All Hollywood LAPD Reports
o & Respond to Everything Possible Line by Line
■ Edit Attached Word Document & Respond in Another Font Color
■ Like This For Thoroughness.....
■ Also Providing .pdf Via Email & Printed Delivered ,@ Station
o Detective Klohr Should Already Be Digging....
■ Liability is on Detective, Captains, & Chief(s) Past & Present Until
Otherwise Proven by Detective/LAPD
■ Only Excuse for Inaction is Transferring Case to Higher Law
Enforcing Authority Willing & Able (in Collaboration with Russell)
o Referenced Below in Relevant Timeline
• ■ No Excuse for Unresolved Complaints = Illegal Obstruction
• Tolerance of Criminal Actions to Does Not Stop/Deter Crime
■ Detain, Interrogate, &/or Arrest; ANYONE Other Than The Victim
• Complete Quashed LAPD Subpoena (Attached)

• Can Detectives/DA etc. Get Information Faster & By Element
of Surprise With or Without Warrants etc. Please?
o Any Reports Against Victim/Character Witness/False Accusations?
■ Communications With Family, Friends, Gov Regarding Victim? etc.?
■ Any Concealed Information Victim Might Have Reliance Upon?
• Relevant to Federal Lawsuit; Share Willfully for Forgiveness
B. Meeting Requests:
• Chief & Higher? - Now Additionally Their Legal Responsibility
• Mayor - Eric Garcetti; For Any Support Possible
o Following Up On Previous Neglected Requests Made @ City Hall
• District/City Attorney - Jackie Lacey & Mike Feuer
o Most Importantly for Victim Compensation •
o Preparation to Press Charges/Arrest Warrants if Necessary
o Terminate Looming Unfiled Report from UCLA PD
• Feds - For More Help With Federal Investigation of RICO
o Connection To Director/ Highest Ranking in LA
o Need Unobstructed Information From: Secret Service, FBI, & CIA
• Head(s) of LAPL & Subpoenaed Organizations
C. Additional Request
• Legal Support - District/City Attomey(s) Connection Should Be Enough.
• Victim Compensation - Real Advocate Within LAPD/DA? ASAP
o This Should Have Happened Like Overnight & Years Ago
® Witness Protection - Beverly Hills > Hollywood Hills (Hotel Connections?)
• Freelance/Part-Time Work (On RR Own Case Then Possibly As Needed)
D. Public Records Request
• This Document To Be Treated Like No Less Than Public Records Request
o More Like Court Ordered Via Inevitable Subpoena
• Active Involvement Joint Investigation For QA
o > (Greater Than) Information Acquired By LAPD Shared With RR
i:

E. Completion of Illegally Quashed Subpoenas
o Please Fulfill LAPD Subpoena
o & All Additional Attached Subpoenas Coordinated Directly With Russell
■ Search Warrants Without Notice > Subpoenas
■ Literally Seen Cops Search Personal Computer & Not Find Stuff
• When Serving Warrant On Dumb Brother
F. Show Russell Everything
0 Wants to see your computer, software, what information your screen(s)
can pull up on both victim himself and suspects, from the perspective of
detective opposed to a print out or word of mouth.

G. Cease & Desist
• Stop Creeping On Victim Like Stalkers, Stop Obstructing, Stop Neglecting
H. Demands
• Justice As Requested
VL Conclusion:: Response Requested ASAP!
Reiterating the fact that Russell Rope has absolutely NO MENTAL HEALTH ISSUES,
only haters of brilliance and integrity with no honest defense but to impossibly attack
credibility. The real victim, Russell, has never had any legitimate mental health problems
and never had any issues with law enforcement, both not alleged until being retaliated
against by instigating Defendants for reporting crimes and filing lawsuits after cease and
desist legal warnings were neglected. That is not how justice is supposed to work. Prior
to alleged RICO conspiracy, victim’s record was flawless, is currently clean, was
expunged since entrapment, and this member of the community, acknowledged by the
previous, has the same rights as you. The victim is highly educated and has priceless
intellectual property claims; lives, runs his business, has several gig jobs, and does
regular volunteer work in and around Hollywood.
Some of the known John Does are not even US citizens causing problems that also affect
others here in Los Angeles. Different Does are not from this state, county, city, or region,
but a lot of crimes were committed here, or the victim was here if the crimes were
committed online. There is every honest reason to support the victim and terminate
crime. Get your priorities straight. Law breaking invaders must die, metaphorically
and/or in self-defense; by LAW. Moreover, there have been zero denials of the victim’s
accusations and all of Russell’s predictions have been correct.
In conclusion, greedy and envious criminals have taken almost everything that matters
most to the victim.
Damages are irreparable, but justice is attainable. There is no
justification for Defendants’ illegal and immoral actions. They have killed relationships,
pushed the victim out of his family, falsely imprisoned, stolen money, physical property,
and intellectual property, homes, his car, business, health, time, and they must be
brought to justice. The possible federal legal victory still provides the best possible
conflict resolution for all parties, is certainly more all encompassing than this report, but
is not providing security or investigation quick enough. LAPD is welcome to, but not
even being asked to make an arrest at this point; rather to protect and serve through joint
investigation with the Plaintiff, sharing of information, access, and connections that cost
nothing other than time our taxes are intended to pay for. Please do the right thing,
being your job with integrity, and help this native local citizen on a quest for justice; join
team honesty on the rise to success.

ts/%

IELR [QPfjT^fi^l/2019) © Copyright * Infinity

@ justice@russellrope.com
@ https://mssellrope.com
@ 310-663-76544

